   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




January 11, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Review of Nevada’s Monitoring of the Community Services Block Grant
               Program (A-09-10-01009)


Attached, for your information, is an advance copy of our final report on Nevada’s monitoring of
the Community Services Block Grant program. We will issue this report to the State of
Nevada’s Department of Health and Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or Lori A. Ahlstrand, Regional
Inspector General for Audit Services, at (415) 437-8360 or through email at
Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-10-01009.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103




January 11, 2011

Report Number: A-09-10-01009

Mr. Gary Gobelman
Community Services Grant Program Manager
Nevada Department of Health and Human Services
4126 Technology Way, Suite 100
Carson City, NV 89706

Dear Mr. Gobelman:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Nevada’s Monitoring of the Community Services
Block Grant Program. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
respond should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, the final report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact James Kenny, Audit Manager, at (415) 437-8370 or through email at
James.Kenny@oig.hhs.gov. Please refer to report number A-09-10-01009 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Gary Gobelman


Direct Reply to HHS Action Official:

Mr. Oscar Tanner
Director
Division of Financial Integrity
Sixth Floor East Wing, Aerospace Building
370 L’Enfant Promenade, SW
Washington, DC 20447
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF NEVADA’S MONITORING
  OF THE COMMUNITY SERVICES
    BLOCK GRANT PROGRAM




                       Daniel R. Levinson
                        Inspector General

                         January 2011
                         A-09-10-01009
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. The CSBG program funds a State-administered network of more than 1,100 local
agencies that create, coordinate, and deliver programs and services to low-income Americans.
States received $680 million in fiscal years (FY) 2009 and 2010 through the CSBG program.
The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (the Recovery Act),
provided $1 billion in additional CSBG funds for FYs 2009 and 2010.

In Nevada, the Department of Health and Human Services (the State agency) administers the
CSBG program. The State agency received approximately $3.7 million in regular CSBG funds
each year for FYs 2009 and 2010. The Recovery Act provided the State agency $5 million in
additional CSBG funds for FYs 2009 and 2010. Of the total CSBG funding of $12.4 million,
$11.6 million passed through to the State’s organizations eligible to receive CSBG funds
(eligible entities). These entities were all Community Action Agencies (CAA).

Section 678B of the CSBG Act requires the State agency to monitor eligible entities by
conducting a full onsite review of each eligible entity at least once during each 3-year period.
The State agency conducts these reviews to determine whether eligible entities meet the
performance goals, administrative standards, financial management requirements, and other
requirements of the State.

Federal regulations (45 CFR § 96.30(a)) state: “Fiscal control and accounting procedures must
be sufficient to (a) permit preparation of reports required by the statute authorizing the block
grant and (b) permit the tracing of funds to a level of expenditure adequate to establish that such
funds have not been used in violation of the restrictions and prohibitions of the statute
authorizing the block grant.” Pursuant to section 1512 of the Recovery Act, each agency that
provides recovery funds to a recipient is required to make the information in recipient reports,
such as the total amount of funds received, publicly available on the Internet.

OBJECTIVE

Our objective was to determine whether the State agency established adequate internal controls
for assessing and monitoring CSBG funds provided to CAAs under the Recovery Act.

SUMMARY OF FINDINGS

The State agency did not establish adequate internal controls for assessing and monitoring CSBG
funds provided to CAAs under the Recovery Act. Specifically, the State agency did not:

   •   conduct a full onsite review of each CAA within a 3-year period or

   •   sufficiently track CSBG funds provided to CAAs under the Recovery Act.

                                                 i
These deficiencies occurred because the State agency did not consistently follow its existing
written policies and procedures for conducting onsite reviews and did not have adequate policies
and procedures for tracking CSBG funds provided under the Recovery Act. In addition, the
State agency informed us that it did not have adequate resources to conduct timely reviews.

Without adequate internal controls, Recovery Act and CSBG program funds may be at risk for
fraud, waste, and abuse at eligible entities and Recovery Act information posted on the Internet
may be inaccurate.

RECOMMENDATIONS

We recommend that the State agency:

    •   conduct full onsite reviews of its CAAs in a timely manner and

    •   strengthen its policies and procedures to ensure sufficient tracking of CSBG funds
        provided to CAAs under the Recovery Act.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding regarding
full onsite reviews of its CAAs. However, the State agency commented that there was not a
lapse in general oversight of its CAAs because the CSBG program manager was in continuous
contact with each CAA.

The State agency did not concur with our finding regarding tracking of CSBG funds provided to
CAAs under the Recovery Act. The State agency indicated that the fiscal unit, not the grants
management unit, was responsible for tracking and reporting on Recovery Act expenditures.

The State agency did not address our recommendations. The State agency’s comments are
included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree with the State agency that the grants management unit was not responsible for tracking
and reporting on Recovery Act expenditures and revised the report accordingly. However, at the
time of our review, the records from the fiscal and grants management units contained various
types of errors. Therefore, the records should be reconciled to ensure that Recovery Act
information posted on the Internet is accurate.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Community Services Block Grant Program .....................................1
              Office of Community Services ......................................................................1
              Community Services Block Grant Program in Nevada .................................1
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          FULL ONSITE REVIEWS .......................................................................................3
               Federal Requirements ....................................................................................3
               State Agency’s Compliance With Federal Requirements ..............................3

          TRACKING RECOVERY ACT FUNDS .................................................................4
              Federal Requirements ....................................................................................4
              State Agency’s Compliance With Federal Requirements ..............................4

          RECOMMENDATIONS ..........................................................................................5

          STATE AGENCY COMMENTS ..............................................................................5

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................5

APPENDIX

          DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Federal Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. The CSBG program funds a State-administered network of more than 1,100 local
agencies that create, coordinate, and deliver programs and services to low-income Americans.
States received $680 million in fiscal years (FY) 2009 and 2010 through the CSBG program.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (the Recovery Act),
provided $1 billion in additional CSBG funds for FYs 2009 and 2010. As with annually
appropriated CSBG funds, Recovery Act funds may be used to reduce poverty, revitalize
low-income communities, and help low-income families in rural and urban areas become
self-sufficient.

Office of Community Services

The U.S. Department of Health & Human Services, Administration for Children and Families
(ACF), Office of Community Services (OCS), is responsible for overseeing the CSBG program.
States and territories submit applications annually or biannually to OCS that include (1) a
statement of goals and objectives, (2) information on the specific types of activities to be
supported, (3) areas and categories of individuals to be served, and (4) criteria and methods for
distributing funds to local agencies.

Community Services Block Grant Program in Nevada

In Nevada, the Department of Health and Human Services (the State agency) administers the
CSBG program. The State agency received approximately $3.7 million in regular CSBG funds
each year for FYs 2009 and 2010. The Recovery Act provided the State agency $5 million in
additional CSBG funds for FYs 2009 and 2010. Of the total CSBG funding of $12.4 million,
$11.6 million passed through to the State’s organizations eligible to receive CSBG funds
(eligible entities). The State agency retained approximately $800,000 to monitor these eligible
entities to ensure compliance with applicable Federal requirements and achievement of
performance goals, as required by 45 CFR § 92.40(a).

At the time of our audit, Nevada had 12 eligible entities, all of which were Community Action
Agencies (CAA). The CAAs provided direct services to residents throughout Nevada.
Examples of services included those related to employment and benefits coordination,
emergency services, food assistance, housing assistance, and case management. In addition, the
CAAs partnered with other local and State organizations to identify priorities, develop
collaborative strategies, and deliver services.




                                                1
Office of Inspector General Audits

On December 31, 2009, we issued a memorandum 1 to ACF alerting it that CSBG program funds
made available under the Recovery Act might be at risk for fraud, waste, and abuse at certain
CAAs that State agencies designated as “vulnerable” or “in crisis.” We reviewed ACF records in
November 2009 and identified 20 CAAs in 16 States that the States had reported as vulnerable or
in crisis as of October 30, 2009. These 20 CAAs are scheduled to receive a total of $44.9 million
in Recovery Act funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency established adequate internal controls
for assessing and monitoring CSBG funds provided to CAAs under the Recovery Act.

Scope

Our review covered the period April 1, 2009, through March 31, 2010. We only reviewed the
State agency’s internal controls considered necessary to achieve our audit objective.

We performed our fieldwork in May 2010 at the State agency’s office in Carson City, Nevada.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and policies related to Federal grant awards and the
        CSBG program;

    •   interviewed the State agency’s officials and employees;

    •   reviewed the State agency’s application and plan for Recovery Act funds;

    •   reviewed the State agency’s records on its full onsite reviews of all eligible entities;

    •   reviewed the State agency’s records for CSBG funds provided to CAAs under the
        Recovery Act;

    •   reviewed the CAAs’ annual audit reports for FYs ended 2007 through 2009 when
        available;

    •   reviewed risk assessments from October 2009 for all 12 CAAs; and
1
 Office of Inspector General, “Alert: Community Service Block Grant Recovery Act Funding for Vulnerable and
In-Crisis Community Action Agencies” (A-01-09-02511). Available at:
http://oig.hhs.gov/oas/reports/region1/10902511.pdf. Accessed September 23, 2010.


                                                      2
   •   discussed our preliminary findings with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not establish adequate internal controls for assessing and monitoring CSBG
funds provided to CAAs under the Recovery Act. Specifically, the State agency did not:

   •   conduct a full onsite review of each CAA within a 3-year period or

   •   sufficiently track CSBG funds provided to CAAs under the Recovery Act.

These deficiencies occurred because the State agency did not consistently follow its existing
written policies and procedures for conducting onsite reviews and did not have adequate policies
and procedures for tracking CSBG funds provided under the Recovery Act. In addition, the
State agency informed us that it did not have adequate resources to conduct timely reviews.

Without adequate internal controls, Recovery Act and CSBG program funds may be at risk for
fraud, waste, and abuse at eligible entities and Recovery Act information posted on the Internet
may be inaccurate.

FULL ONSITE REVIEWS

Federal Requirements

Section 678B of the CSBG Act requires the State agency to monitor eligible entities by
conducting a full onsite review of each eligible entity at least once during each 3-year period,
including an onsite review of each newly designated entity immediately after the completion of
the first year in which the entity receives funds through the CSBG program. The State agency
conducts these reviews to determine whether eligible entities meet the performance goals,
administrative standards, financial management requirements, and other requirements of the
State.

State Agency’s Compliance With Federal Requirements

The State agency did not conduct full onsite reviews at all 12 of its CAAs within the 3-year
period as required:

   •   The State agency did not conduct onsite fiscal monitoring reviews at any of its 12 CAAs
       within the most recent 3-year period. During our fieldwork, the State agency was in the
       process of having public accounting firms perform these reviews.


                                                3
   •   The State agency did not conduct onsite program monitoring reviews at 3 of its 12 CAAs
       within the most recent 3-year period. During our fieldwork, the State agency conducted
       these reviews at two of the three CAAs. However, the State agency was 1 year late in
       conducting one of the reviews and 2 months late in conducting the other review. For the
       remaining CAA, the State agency planned to conduct a program monitoring review in
       June 2010, approximately 2 years after the end of the 3-year period.

   •   The State agency did not conduct onsite program monitoring reviews at three newly
       designated CAAs immediately after completion of the first year in which the CAAs
       received CSBG funds. The State agency was 5, 9, and 11 months late, respectively, in
       conducting these reviews.

These deficiencies occurred because the State agency did not consistently follow its existing
written policies and procedures for conducting onsite reviews. In addition, the State agency
informed us that it did not have enough resources to conduct timely reviews. During our
fieldwork, the State agency had one full-time employee who was responsible for CSBG program
activities, including program monitoring reviews.

Without adequate fiscal and program monitoring reviews, Recovery Act and CSBG program
funds may be at risk for fraud, waste, and abuse at eligible entities.

TRACKING RECOVERY ACT FUNDS

Federal Requirements

Federal regulations (45 CFR § 96.30(a)) state: “Fiscal control and accounting procedures must
be sufficient to (a) permit preparation of reports required by the statute authorizing the block
grant and (b) permit the tracing of funds to a level of expenditure adequate to establish that such
funds have not been used in violation of the restrictions and prohibitions of the statute
authorizing the block grant.”

Pursuant to section 1512 of the Recovery Act, each agency that provides recovery funds to a
recipient is required to make the information in recipient reports, such as the total amount of
funds received, publicly available on the Internet.

State Agency’s Compliance With Federal Requirements

The State agency did not sufficiently track CSBG funds provided to CAAs under the Recovery
Act. Specifically, the State agency’s grants management unit did not reconcile its records to
those maintained by the State agency’s fiscal unit. The grants management unit’s records
showed that approximately $2.5 million had been provided to the 12 CAAs. However, the fiscal
unit’s records showed a total of approximately $2.7 million. The difference was due to
adjustments, data entry errors, and the use of different accounting methods for advances of
Recovery Act funds. For example, the grants management unit recorded an advance using the
accrual method. However, the fiscal unit recorded the advance using the cash method.




                                                 4
This deficiency occurred because the State agency did not have adequate policies and procedures
for tracking CSBG funds provided under the Recovery Act. Without adequate policies and
procedures, Recovery Act information posted on the Internet may be inaccurate.

RECOMMENDATIONS

We recommend that the State agency:

    •   conduct full onsite reviews of its CAAs in a timely manner and

    •   strengthen its policies and procedures to ensure sufficient tracking of CSBG funds
        provided to CAAs under the Recovery Act.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding regarding
full onsite reviews of its CAAs. However, the State agency commented that there was not a
lapse in general oversight of its CAAs because the CSBG program manager was in continuous
contact with each CAA.

The State agency did not concur with our finding regarding tracking of CSBG funds provided to
CAAs under the Recovery Act. The State agency indicated that the fiscal unit, not the grants
management unit, was responsible for tracking and reporting on Recovery Act expenditures.
The State agency commented that the fiscal unit’s spreadsheets were the official State records
used for reporting and that the grants management unit’s spreadsheet was a working document
used by the CSBG program manager to track the progress made by CAAs in expending
Recovery Act funds.

The State agency did not address our recommendations. The State agency’s comments are
included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree with the State agency that the grants management unit was not responsible for tracking
and reporting on Recovery Act expenditures and revised the report accordingly. However, at the
time of our review, the records from the fiscal and grants management units contained various
types of errors. Therefore, the records should be reconciled to ensure that Recovery Act
information posted on the Internet is accurate.




                                               5
APPENDIX
                                                                                                                Page 1 of 4


APPENDIX: DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS 




   JIM GIOSONS                                                                                      MICHAEL J . WILLDEN




                                                   •
     "'"""                                                                                               I~", ·' ...




                            DEPARTMENT OF HEALTH AND HUMAN SERVICES 

                                          DIRECTOR'S OFFICE 

                                     4126 Technology Way, Suite 100 

                                     Carson City, Nevada 89706-2009 

                              Telephone (775) 684-4000 • Fax (775) 684-4010 

                                                dhhs.nv.gov 



      November 4,2010

      Lori A. Ahlstrand. Regional Inspector General for Audit Services
      Department of Health and Human Services
      Office of Inspector General
      Office of Audit Services, Region IX
      90 - 7'" Street, Suite 3-650
      San Francisco, CA 94103

      Re: Report Number: A-09-10-01009

      Dear Ms. Ahlstrand:

      This letter is in response to the draft report from the U.S. Department of Health and Human
      Services, Office of Inspector General (GIG) entitled Review of Nevada's Monitoring of the
      Community Services Block Grant. The Nevada Department of Health and Human Services'
      (DHHS) comments regarding the two findings are summ;.rized below.

      1. 	       The State Agency did not conduct a full onsite review of each CM within a three-year
                 period.

                 a) 	   The State agency did not conduct onsite fiscal monitoring reviews at any of its 12
                        CAAs wilhin the most recent three-year periOd.

                        In an effort to ensure transparency and accountability in the use of federal funds, the
                        DHHS Community Services Block Grant (CSBG) Program Manager is in continuous
                        contact with each of Nevada's Communrty Action Agencies (eAAs) by phone, email,
                        andlor in person. This is a routine part of the DHHS managemenl process. It allows
                        DHHS to regularly provide its CAAs with program information an~ training.
                        Moreover, it enables DHHS to quickly diagnose CM problems and provide timely
                        technical assistance.

                        A critical component to this ongoing oversight is a review of monthly expenditure
                        reports in order to track program outcomes, monitor CSBG spending and. more
                        recently, monitor the expenditure of ARRA dollars. Additionally, Nevada's CAAs
                        submit quarterly progress reports. which are used to track agency performance.
                        DHHS also partners with the Nevada Community Action Association to arrange for
                        technical assistance to individual agencies when there are areas of concern or a
                        need for improved performance or procedures.
                                                                                                     Page 2 of 4




Lori A. Ahlstrand
November 4,2010
Page 2


             Considering the above, while DHHS concurs that there was a gap in the completion
             of the fiscal component of formal onsile reviews, there was not a lapse in general
             oversight of Nevada's eAAs.

             The DHHS auditor was ensile at 11 of the State's 14 eAAs during Stale Fiscal
             Years (SFY) 2006, 2007, and 2008. (The number of eAAs in the State was reduced
             from 14 to 12 in SFY 2009 as a result of the merger of three eAAs into one new
             eAA.) Ten onsile fiscal monitorings were planned for SFY 2009. However, the
             onsite monitoring process was suspended and DHHS efforts were focused on
             refining and improving fiscal management procedures_ During SFY 2009 and the
             first half of SFY 2010, DHHS adopted a detailed budgeting format for CSBG to
             ensure that funds are budgeted in accordance with State and federal fiscal
             requirements. A new request for funds process that requires submission of a
             detailed list of transactions with the payment request was put in place along with
             enhanced and standardized fiscal instructions. To accompany these improved
             procedures, DHHS launched a new onsile fiscal monitoring process that is
             performed by Certified Public Accountants (CPA) working under contract with
             DHHS. DHHS has completed 8 fiscal monitorings using this new process and plans
             to have the remaining 4 completed this fiscal year.

             The new request for funds process implemented in SFY 2009, which requires
             payment detail for every expenditure, serves as an additional layer to the CSBG
             Prog ram Staff's oversight and moniloring process. 11 makes certain that CAA
             grantee expenditures are consistent with the approved budget and are allowable.
             Based on the 8 onsite monilorings completed by the ePA firms, there have been
             only a few questioned costs, which indicates that the new intemal control
             procedures are successful at helping ensure that funds are being spent properly.

      b} 	   The State agency did not conduct onsile program monitorings at Ihree of its 12
             eAAs within the mosl recent three-year period.

             As indicated under item 1a above, the CSBG Program Manager is in continuous
             contact with each of Nevada's eMs. This is a routine part of the DHHS
             management process and provides an opportunity for DHHS to regularly track
             program outcomes. \toJhile DHHS concurs that the programmatic component of
             three formal onsite reviews did not take place within the required Ihree year period,
             there was not a lapse in general oversight of Nevada's eAAs. One of the three
             onsile monitorings referenced in the finding has been completed; the other two are
             scheduled 10 be completed by December 31 , 2010.

             The DHHS monitoring calendar initially included the three onsile monitoring reviews.
             In April 2009, DHHS was awarded American Recovery and Reinvestment Act
             (ARRA) funding which increased the State's CSBG funding by 235%, from $3.7
             million to $8.7 million, without any increase in administrative funding. As a result. the
             allowable administrative expenses went from 5% of the CSBG award prior to ARRA
             to 2% of the available CSBG and ARRA funds awarded for the April 2009 through
             September 2010 time period.
                                                                                                        Page 3 of 4




Lori A. Ahlstra nd
November 4, 2010
Page 3


              The lack of additional administrative funds to support the additional management
              activities requ ired by ARRA forced DHHS to make difficult choices to safeguard this
              significant increase in funding. DHHS considered risk and resources and developed
              a management approacl1 that protected federal funds and supported quality service
              delivery. A decision was made to delay the ensile review of the three agencies that
              were due for ensile monitoring. These eMs were nol considered high risk and
              represented only 4% of the tolal CSSG and ARRA funds awarded. DHHS
              continued to provide the ongoing oversight activities noted above to these three
              agencies.

              Taking into account that ARRA provided no State administrative funds to support
              the 235% increase in CSBG funding, DHHS feels it did as much as it was able to do
              with the available resources 10 accomplish the addilional activities required by
              ARRA and ensure that funds were spent with transparency and accountability.
              Some of the major additional activities resulting from ARRA were the preparation
              and submission to the u.S. Department of Health and Human Services of an ARRA
              State Plan. a new funding formula and a revision of the CM application process to
              accommodate the goals and purpose of ARRA. Additionally, implementation of new
              federal reporting requirements and transparency expectations required significant
              planning and system development. In an effort to meet the goals of ARRA to create
              and retain jobs, DHHS worked in collaboration with 10 of the 12 eMs to develop
              new employment programs. DHHS also put in place fiscal tracking procedures and
              program oversight procedures to ensure that ARRA funds were spent in accordance
              with the goals and requirements of ARRA.

              Finally, the resul ts achieved with Ihe ARRA funds, which were not part of the
              objectives of the review conducted by OIG, were substantial. With assistance from
              DHHS, 10 CMs were able to launch employment services targeted to low-income
              individuals who were hit the hardest by the recession. From July 1. 2009 to
              September 30, 2010, the CMs in the State assisted 2,830 individuals to remove
              one or more employment barriers, 1,279 individuals obtained employment, and
              4,284 individuals received emergency rent, utility. food, and medical services in an
              effort to stabilize families in crisis. ARRA funds also provided the impetus for CMs
              to form new partnerships with employers, other employment service providers. and
              community colleges to coordinate a community response to assisting individuals in
              their efforts to return to the workforce. It is anticipated that these efforts will lead to
              long term improvements in coordination of services to low-income individuals and
              fam ilies.

       c) 	   The State did not conduct onsite monitoring reviews at Ihree newly designated
              CMs immediately after completion of the first year in which the CMs received
              CSBG fundinQ.
                                                                                                   Page 4 of 4




Lori A. Ahlstrand
November 4, 2010
Page 4


               The comments submitted under item "b" above also pertain to this finding. While
               DHHS concurs that formal ensile monitoring did not take place immediately after the
               first year of operation by three newly designated eAAs, there was not a lapse in
               general oversight and periormance review of these new CAAs.

        In conclusion regarding findings 1a, b, and c, DHHS is concerned that the OIG report
        understates the level of interaction, oversight, and collaboration that occurs between DHHS
        staff and eMs, and might create the impression that monitoring activity is limited to ensile
        monitoring once every three years. Further, nol only were adequate controls in place to
        prevent, fraud , waste and abuse, DHHS actually expanded its controls during the time
        period covered by the DIG report.

2. 	    The State agency did not sufficiently track CSBG funds to CAAs under the Recovery Act.

        DHHS does not concur with this finding.

        There appears to be some confusion in the report regarding the roles and responsibilities of
        the Grants Management Unit (GMU) and Fiscal Units, both of which operate in the
        Director's Office of the Department of Health and Human Services. The GMU was
        responsible for tracking program-related information for the ARRA 1512 report. The Fiscal
        Unit was responsible for tracking and reporting on ARRA expenditures. The report correctly
        notes that two sets of spreadsheets were utilized. The GMU spreadsheet was a working
        document used by the CSBG Program Manager to track the progress made by CAAs in
        expending ARRA doliars. Due to the lag period between submission of payment requests
        and actual payment. the CSBG Program Manager maintained a spreadsheet in order to
        maintain the most current information for oversight purposes. The Fiscal Unit spreadsheets
        were (and continue to be) the official State record and were used for purposes of reporting
        ARRA expenditures on the 1512 report. The DIG report notes that adjustments were in
        progress during the May 2010 monitoring visit. These adjustments were completed in July
        2010. The Fiscal Unit utilizes the fiscal management conlrols established by the State of
        Nevada and these procedures were followed during the time period covered by the review.

As indicated in our comments, it is our intent to achieve and maintain full compliance with CSBG
requirements and to continue our efforts to assist families achieve economic self-sufficiency with
these funds .




~frtL""'
Gary Gobelman , CSBG Program Manager

CC: 	   Laurie Olson, Chief, Grants Management Unit
        Mary Liveralli, Deputy of Program Services
        Michael Torvinen. Deputy of Fiscal Services
